No. _________
IN THE SUPREME COURT OF THE UNITED STATES

JAIME MEZA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
APPENDIX

/s/ Christopher A. Curtis
JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax

Christopher A. Curtis **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 05270900
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
(817) 978-2753

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit, CA No. 20-10218, dated
February 12, 2021, United States v. Meza, 843 Fed. Appx. 592 (5th Cir.
2021) (unpublished).
Appendix B Judgment and Sentence of the United States District Court
for the Northern District of Texas, entered February 27, 2020.
United States v. Meza, Dist. Court 3:19-CR-00057-B-1.

APPENDIX A

Case: 20-10218

Document: 00515743484

Page: 1

Date Filed: 02/12/2021

United States Court of Appeals
for the Fifth Circuit
___________

United States Court of Appeals
Fifth Circuit

FILED

No. 20-10218
___________

February 12, 2021
Lyle W. Cayce
Clerk

United States of America,

Plaintiff—Appellee,
versus
Jaime Meza,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CR-57-1
____________________________
Before Haynes, Higginson, and Oldham, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

App. A 001

Case: 20-10218

Document: 00515743474

Page: 1

Date Filed: 02/12/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
No. 20-10218

February 12, 2021
Lyle W. Cayce
Clerk

United States of America,

Plaintiff—Appellee,
versus
Jaime Meza,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-cr-57-1
Before Haynes, Higginson, and Oldham, Circuit Judges.
Per Curiam:*
Appellant’s Petition for Panel Rehearing is DENIED. The prior
opinion, United States v. Meza, --- F. App’x ---, 2021 WL 235771 (5th Cir. Jan.
22, 2021), is withdrawn, and the following opinion is substituted:
Jaime Meza pleaded guilty to one count of possession, sale, and
disposal of a stolen firearm in violation of 18 U.S.C. § 922(j). The district
*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

App. A 002

Case: 20-10218

Document: 00515743474

Page: 2

Date Filed: 02/12/2021

No. 20-10218

court sentenced Meza to the statutory maximum of 120 months. Meza
challenges the sentence because he says the district court improperly relied
on a confidential source. We disagree and affirm. 1
I.
Meza and Ramiro Diaz stole two firearms, six loaded magazines, and
some medical equipment from an FBI agent’s Chevy Impala at the Eastbridge
apartment complex in Dallas, Texas. The next morning, the agent reported
the theft. The FBI assigned Special Agent Taylor Page to the case.
During his investigation, Special Agent Page identified one individual
whom Meza contacted after the burglary. That individual agreed to be a
government informant under the condition of anonymity. The “confidential
source”—or CS—testified that Meza contacted him/her, showed him/her
the firearms and medical equipment, and said he planned to sell the firearms
using his cell phone.
A few weeks later, officers from the Dallas Police Department found
Meza in a stolen vehicle. The officers arrested Meza and discovered, via a
routine records check, that Meza had been arrested several times for
burglarizing vehicles in and around Eastbridge. They promptly contacted
Special Agent Page, who then contacted the CS. The CS confirmed that
Meza was involved in burglaries near Eastbridge. The CS also described the
Colt rifle and Glock pistol Meza had shown him/her. Those descriptions
matched the stolen firearms. And though the CS said he/she did not know
the name of Meza’s buyer, he/she did know the buyer was a Hispanic male
whose last name started with a “G” and who drove a black Jeep.

1

Judge Haynes concurs in the judgment and in Sections I, II.C., III., and IV. of the
opinion only.

2

App. A 003

Case: 20-10218

Document: 00515743474

Page: 3

Date Filed: 02/12/2021

No. 20-10218

Special Agent Page used the CS’s testimony to find Jose Guzman,
who drove a black Jeep and resided in Dallas. He interviewed Guzman twice.
During the first “knock and talk” interview, Special Agent Page showed
Guzman pictures of Meza and Diaz. Guzman said he didn’t know Diaz but
did know Meza—whom he referred to as “Trouble.” Special Agent Page also
asked Guzman about the firearms. Guzman said Meza sold him the stolen
Colt Model M4LE and Glock Model 22 for $600. Guzman gave the FBI Task
Force Officers permission to retrieve the Colt from under his bed, and he
handed over the Glock (which he had already sold) later that day.
During the second interview—which occurred only five hours after
the first—Guzman waived his Miranda rights and provided additional
information about his relationship with Meza. Guzman admitted he often
purchased items like power tools and car stereos from Meza. He also
reiterated that on May 24—the day after the theft—he bought the Colt, the
Glock, and six loaded magazines for $600. Guzman said he and Meza
negotiated that transaction via text message. Guzman was later charged as a
co-conspirator in the matter for serving as Meza’s “fence”—the middleman
between Meza (the thief) and the eventual buyer of the stolen goods.
Meza pleaded guilty to one count of possession, sale, and disposal of
a stolen firearm in violation of 18 U.S.C. § 922(j). He did not accept a plea
agreement. The resulting PSR assigned Meza a base offense level of 20. See
U.S.S.G. § 2K2.1(a)(4)(B). He also received the following adjustments: a
two-level increase because the firearms were stolen, id. § 2K2.1(b)(4)(A); a
four-level increase because he engaged in the trafficking of firearms, id.
§ 2K2.1(b)(5); a four-level increase because he used or possessed the
firearms in connection with another felony offense, id. § 2K2.1(b)(6)(B); and
a three-level reduction for acceptance of responsibility, id. § 3E1.1(a), (b).
The resulting total offense level was 27. Meza had a criminal history score of
16, which established a Criminal History Category of VI. The Guidelines

3

App. A 004

Case: 20-10218

Document: 00515743474

Page: 4

Date Filed: 02/12/2021

No. 20-10218

recommended a sentence of 130 to 162 months. But based on the statutory
maximum, the Guidelines term was reduced to 120 months.
Meza objected to both four-level enhancements. He argued the
§ 2K2.1(b)(5) enhancement was impermissibly based on the CS’s hearsay
statements and other sources of evidence that the PSR inadequately
described. And he argued the § 2K2.1(b)(6)(B) enhancement was
inapplicable because the evidence was insufficient to show Meza participated
in the burglary.
As to Meza’s first objection, the Government responded that the
circumstantial evidence—including text messages and photos sent to his
fence—showed Meza knew Guzman would sell the firearms illegally after
purchasing them from Meza. As to the second objection, the Government
responded that additional circumstantial evidence—the corroborated
witness testimonies and Meza’s criminal history of burglarizing cars—
showed Meza did participate in the burglary. The probation officer agreed.
The addendum to the PSR credited the CS’s testimony, as well as the texts
between Meza and Guzman, the evidence of Meza’s earlier arrests for
burglaries at the same apartment complex, and Meza’s responsibility for coconspirator Diaz’s actions. The district court adopted the PSR without
change.
At sentencing, Meza reiterated his objections to the enhancements.
The district court asked to hear from Special Agent Page. Special Agent Page
testified about his conversations with Guzman, who explained his role in
reselling the stolen goods he bought from Meza. Special Agent Page testified
that he also interviewed the CS, an individual who stated he/she had
firsthand conversations with Meza, said he/she observed Meza’s activity,
and provided the details Special Agent Page used to track down Guzman.
The CS said he/she “knew Mr. Meza to be someone that would go pull on

4

App. A 005

Case: 20-10218

Document: 00515743474

Page: 5

Date Filed: 02/12/2021

No. 20-10218

door handles[,] basically burglarize vehicles” near Eastbridge. As far as
Special Agent Page knew, the CS had not worked as an FBI informant before.
And though Special Agent Page believed the CS had a criminal history, he
said he couldn’t recall the offenses.
During cross-examination, Meza’s attorney “request[ed] as Brady
information the prior criminal history of any witness, confidential or
otherwise, that the government [wa]s relying on.” The attorney explained
his contention that the Government must disclose that information because
it was material to sentencing. The Government averred that it did “not
violate[] any Brady obligations” because “Brady is a trial right . . . [and] Mr.
Meza has pled guilty.” The district court immediately denied the Brady
request.
Near the close of argument, Meza’s attorney asked the district court
to disregard the CS’s testimony because the CS had never served as an FBI
informant in the past, may have a criminal history of which Meza was
unaware, and made statements that were allegedly uncorroborated. In
response, the Government offered to disclose to the court ex parte the
relationship between the CS and the fence. The district court said there was
“no need to.” Ultimately, the district court denied Meza’s Brady request. It
stated, “I think the presentence report, the addendum, the agent’s testimony
and what the government has had to say all add up to more than enough
evidence that [Meza] was not only at the burglary, but that he also trafficked
the arms.” The district court accepted the PSR’s enhancements and
sentence recommendation.
Before sentencing Meza, the district court addressed the seriousness
of the offense. Addressing defense counsel, it said, “You know, I don’t agree
with you that this is a little crime or not that serious. I think it’s very serious,
particularly with his prior convictions, which are replete with burglary of

5

App. A 006

Case: 20-10218

Document: 00515743474

Page: 6

Date Filed: 02/12/2021

No. 20-10218

vehicles.” The district court said Meza’s criminal history was “another
piece of evidence that adds to the evidence that we already have by the
confidential informant[] and the . . . text records, that he was certainly
involved in the front end of this burglary of a vehicle, and that is in
burglarizing the vehicle and then in trafficking the [firearms].” “So what
should he get?” the district court rhetorically asked. It continued:
Well, 120 months is what he should get, because, you know,
that’s the guidelines range. . . . And I think I would—well, I’m
sure I would give that to him anyway, regardless of my
objections . . . . Even if I granted the objections on the burglary
and on the trafficking, I would still give him 120 months,
because with all those burglaries, he deserves that. He certainly
deserves that.
In conclusion, the district court said, “I would give it to him anyway under
3553.” The district court imposed a statutory-maximum sentence of 120
months in prison, a three-year term of supervised release, no fine, no
restitution, and a $100 mandatory special assessment. Meza timely appealed.
II.
Meza first argues that the district court improperly considered the
CS’s testimony. The district court has “wide discretion in the kind and
source of information it considers” at sentencing. United States v. Young, 981
F.2d 180, 185 (5th Cir. 1992) (citation and alteration omitted). At
sentencing—unlike at trial—district courts are not limited to information
admissible under the Federal Rules of Evidence, “provided that the
information has sufficient indicia of reliability to support its probable
accuracy.” U.S.S.G. § 6A1.3(a). The comment following Guideline 6A1.3
says sentencing courts can consider “[o]ut-of-court declarations by an
unidentified informant . . . where there is good cause for non-disclosure of
the informant’s identity and there is sufficient corroboration by other

6

App. A 007

Case: 20-10218

Document: 00515743474

Page: 7

Date Filed: 02/12/2021

No. 20-10218

means.” And we have recognized that “[e]ven uncorroborated hearsay
evidence may be sufficiently reliable.” United States v. Gaytan, 74 F.3d 545,
558 (5th Cir. 1996) (emphasis added). “Obviously, the district court has
significant discretion in evaluating reliability.” Young, 981 F.2d at 185. So our
“standard for affirming a district court’s factual finding is low: Where a
factual finding is plausible in light of the record as a whole, it is not clearly
erroneous.” United States v. Stubblefield, 942 F.3d 666, 670 (5th Cir. 2019)
(per curiam) (citation omitted); accord United States v. Malone, 828 F.3d 331,
337 (5th Cir. 2016) (requiring the evidence be “reasonably reliable” and
stating that the standard is “not intended to be onerous” (quotation
omitted)). It is Meza’s burden to prove that the district court abused its
discretion in its factfinding. See Young, 981 F.2d at 185 (holding that when a
district court relies on information from the PSR, “[t]he defendant bears the
burden of demonstrating that information the district court relied on in
sentencing is materially untrue” (citation omitted)).
We first hold that the district court did not abuse its wide discretion
by considering the CS’s testimony in applying the Guidelines’ firearmstrafficking enhancement. Then we hold the same with respect to the
Guidelines’ felony-offense enhancement. Finally we hold any error would be
harmless.
A.
We begin with § 2K2.1(b)(5)—or the “firearms-trafficking
enhancement.” It authorizes a four-level enhancement “[i]f the defendant
engaged in the trafficking of firearms.” U.S.S.G. § 2K2.1(b)(5). The
firearms-trafficking enhancement applies when the defendant (i) transfers
two or more firearms to another individual and (ii) knew or had reason to
believe that transfer would result to another transfer to an individual who

7

App. A 008

Case: 20-10218

Document: 00515743474

Page: 8

Date Filed: 02/12/2021

No. 20-10218

(I) would unlawfully possess the firearm or (II) would use or dispose of the
firearm unlawfully. Id. cmt. 13(A).
According to the PSR, the CS initially told Special Agent Page that
Meza contacted him/her, showed him/her the firearms, and said he planned
to sell the firearms using his cell phone. After the Dallas Police Department
informed Special Agent Page about Meza’s arrest, Special Agent Page
followed up with the CS, who then gave a detailed description of both
firearms and the man to whom Meza sold them.
The district court did not abuse its discretion in considering the CS’s
testimony for two reasons. First, the CS’s testimony was corroborated.
Special Agent Page used the CS’s tip to track down Guzman, Meza’s coconspirator. Guzman fit the CS’s description of a Hispanic male, whose last
name started with “G,” and who drove a black Jeep. And Guzman confirmed
that he bought the stolen Colt rifle and Glock pistol from Meza and that he
did so with the intent to sell them—just as he had done with other goods
Meza sold him in the past. The texts show Meza possessed the firearms
before selling them to Guzman and that he used his cell phone to complete
the transaction. And Meza’s criminal history shows he repeatedly
burglarized cars. At sentencing, the district court listed twenty-two prior
offenses—twelve of which were burglaries. Together, Guzman’s testimony,
the texts and photos Meza sent Guzman, and Meza’s criminal history
constitute “sufficient corroboration” of the CS’s statements. U.S.S.G.
§ 6A1.3, cmt. The Government does not need to show that every fact is
corroborated. See Gaytan, 74 F.3d at 558; United States v. Guerrero, 16 F.3d
1216, 1994 WL 57697, at *1 (5th Cir. Feb. 18, 1994) (per curiam) (precedential
per Fifth Circuit Rule 47.5.3). And Meza does not argue any of these facts
taken from the PSR are “materially untrue.” Young, 981 F.2d at 185 (citation
omitted).

8

App. A 009

Case: 20-10218

Document: 00515743474

Page: 9

Date Filed: 02/12/2021

No. 20-10218

Second, this is not an anonymous-tip case. “Statements derived from
police investigations generally bear sufficient indicia of reliability.” United
States v. Oudems, 785 F. App’x 234, 235 (5th Cir. 2019) (per curiam) (citing
United States v. Valdez, 453 F.3d 252, 267 (5th Cir. 2006); United States v.
Vela, 927 F.2d 197, 201 (5th Cir. 1991)). And we have recognized an
important distinction between known informants and truly anonymous
tipsters. See United States v. Martinez, 486 F.3d 855, 861–64 (5th Cir. 2007).
So when an investigator speaks directly to a confidential informant whom the
investigator considers reliable, it is permissible for the district court to
consider the investigator’s testimony regarding the informant’s statements.
See United States v. Golden, 17 F.3d 735, 736 (5th Cir. 1994). That’s especially
true where the defendant “personally met and dealt with” the informant as
well. Oudems, 785 F. App’x at 235.
Here, the CS was not anonymous; he/she was an individual who had
direct contact with both Meza and Special Agent Page. The CS told Special
Agent Page that he/she was in close contact with Meza, having engaged in
firsthand conversations with him and observed his activity. And of course,
Special Agent Page knew the CS’s identity and found him/her credible. The
Government even offered to disclose the CS’s identity to the district court,
but the district court said that was unnecessary. The CS does not become
anonymous simply because Meza now contends that he does not know
him/her.
Based on that evidence, the district court found Meza trafficked
firearms. That conclusion was reasonable based on the CS’s testimony and
the corroborating evidence. So the district court did not err by applying the
firearms-trafficking enhancement.

9

App. A 010

Case: 20-10218

Document: 00515743474

Page: 10

Date Filed: 02/12/2021

No. 20-10218

B.
Now for the second enhancement. Section 2K2.1(b)(6)(B)—or the
“felony-offense enhancement”—authorizes a four-level enhancement “[i]f
the defendant used or possessed any firearm in connection with another
felony offense.” U.S.S.G. § 2K2.1(b)(6)(B). “Another felony offense” is one
“other than the . . . firearms possession or trafficking offense, punishable by
imprisonment for a term exceeding one year.” Id. cmt. 14(C). The other
felony offense at issue here is the burglary of the FBI agent’s car.
The PSR reports that after the Dallas Police Department discovered
that Meza had been arrested for numerous burglaries near the Eastbridge
apartment complex, the CS confirmed to Special Agent Page that Meza had
burglarized cars in that area. Meza rejects this testimony as unreliable too.
But again, the record shows the district court’s reliance was reasonable
because the CS’s testimony was corroborated and he/she was not
anonymous.
Meza’s convictions for burglaries near Eastbridge circumstantially
corroborated the CS’s testimony regarding the burglary of the FBI agent’s
car. So too did the text messages, which showed Meza possessed the firearms
as early as 7:14 a.m. on the morning after the burglary. Meza claims that
“Diaz established that Meza did not commit the burglary,” yet he does not
cite evidence to that effect. Even assuming Diaz attempted to take full
responsibility for the burglary, that does not change the fact that the
circumstantial evidence “sufficient[ly] corroborat[es]” the CS’s statements.
U.S.S.G. § 6A1.3, cmt. Meza’s close connection to this crime, coupled with
his criminal history of committing burglaries in the same apartment
community, certainly provides the support necessary to corroborate the CS’s
testimony. And as explained above, the CS’s connections to both Meza and
Special Agent Page make him/her a non-anonymous source.

10

App. A 011

Case: 20-10218

Document: 00515743474

Page: 11

Date Filed: 02/12/2021

No. 20-10218

Based on that evidence, the district court found Meza participated in
the burglary. That conclusion was reasonable based on the CS’s testimony
and the corroborating evidence. So the district court did not err by applying
the felony-offense enhancement either.
C.
Even if we were to conclude the district court erred by considering the
CS’s testimony and applying the enhancements, that error would be
harmless. “[I]n this circuit, there are two ways to show harmless error if the
wrong guidelines range is employed.” United States v. Guzman-Rendon, 864
F.3d 409, 411 (5th Cir. 2017). The first is the Richardson standard, which
requires a showing that “the district court considered both ranges (the one
now found incorrect and the one now deemed correct) and explained that it
would give the same sentence either way.” Id. (citing United States v.
Richardson, 676 F.3d 491, 511 (5th Cir. 2012)). 2 Under Richardson, the
question is whether the district court would have sentenced Meza to the
statutory maximum of 120 months had it rejected the enhancements. See id.
The sentencing transcript is clear that the answer is yes. After
emphasizing the seriousness of Meza’s numerous vehicle burglaries, the
district court said it would give him the same sentence “[e]ven if [it] granted
the objections on the burglary and on the trafficking.” The district court also
reiterated that, even without the enhancements, it would sentence Meza to

2

The second is the Ibarra-Luna standard, which “requires that ‘the proponent of
the sentence convincingly demonstrate[] both (1) that the district court would have
imposed the same sentence had it not made the error, and (2) that it would have done so
for the same reasons it gave at the prior sentencing.’” Guzman-Rendon, 864 F.3d at 411
(alteration in original) (quoting United States v. Ibarra-Luna, 628 F.3d 712, 714 (5th Cir.
2010)).

11

App. A 012

Case: 20-10218

Document: 00515743474

Page: 12

Date Filed: 02/12/2021

No. 20-10218

120 months under the § 3553 factors. So even assuming the court considered
the wrong Guidelines recommendation, the error is harmless.
III.
Meza next argues that the Government violated Brady v. Maryland,
373 U.S. 83 (1963). Under that decision, the Government “must disclose to
the defendant evidence that is favorable to the accused and material either to
guilt or to punishment.” United States v. Weintraub, 871 F.2d 1257, 1260 (5th
Cir. 1989) (citation omitted). Meza claims the Government failed to adhere
to its Brady obligation at sentencing, and he argues he is entitled to a new
sentencing hearing after the Government discloses the CS’s criminal history.
Assuming for the sake of argument that Meza retained his Brady right
after pleading guilty, 3 Meza must establish three elements: “(1) the
prosecution suppressed evidence, (2) it was favorable to the defendant, and
(3) it was material.” United States v. Brown, 650 F.3d 581, 587–88 (5th Cir.
2011). The Government does not dispute the first two elements, so we need
only address materiality. The evidence would be material if there were a
“substantial, not just conceivable” likelihood that the district court would
have reached a different result had the evidence been disclosed. Id. at 588
(quoting Harrington v. Richter, 562 U.S. 86, 112 (2011)).

3

That proposition is unclear. In the Fifth Circuit, it is well established that a
defendant’s guilty plea waives his pre-plea rights to Brady material. See Alvarez v. City of
Brownsville, 904 F.3d 382, 389 (5th Cir. 2018) (en banc) (“declin[ing] the invitation to
disturb its precedent concerning a defendant’s constitutional right to Brady material prior
to entering a guilty plea” and thereby reaffirming United States v. Conroy, 567 F.3d 174 (5th
Cir. 2009) (per curiam), which held that defendants do not have pre-plea Brady rights).
This makes sense given Brady is a fair-trial right, see Alvarez, 904 F.3d at 395 (Higginson,
J., concurring), and a defendant who pleads guilty “forgoes not only a fair trial, but also
other accompanying constitutional guarantees,” United States v. Ruiz, 536 U.S. 622, 628
(2002) (citing Boykin v. Alabama, 395 U.S. 238, 243 (1969)).

12

App. A 013

Case: 20-10218

Document: 00515743474

Page: 13

Date Filed: 02/12/2021

No. 20-10218

Meza says he intended to use the CS’s criminal history to impeach
his/her credibility, so “we must consider the nature of the impeachment
evidence improperly withheld and the additional evidence of the defendant’s
guilt independent of the disputed testimony.” Weintraub, 871 F.2d at 1262;
see also United States v. Giglio, 405 U.S. 150, 154 (1972) (holding that
impeachment evidence falls within the Brady rule). In Weintraub, our court
distinguished witness testimony that is “strongly corroborated by additional
evidence supporting a guilty verdict” from testimony “on an essential issue
or [for which] there is no strong corroboration.” 871 F.2d at 1262
(contrasting cases). Then we concluded that “the record and transcript from
Weintraub’s trial belie[d] his claim that the withheld evidence was
reasonably likely to change the outcome of his trial.” Id. Rather, “the
corroborating evidence of his guilt and the collateral nature of the withheld
impeachment evidence compel[led] the conclusion that this evidence was not
material to Weintraub’s conviction.” Id.
So too here. As explained above, the Government presented
circumstantial evidence to corroborate each of the CS’s statements. It’s true
that the district court did not say the magic word “materiality.” But that does
not matter. The record makes two things clear: (1) the district court knew
that the CS had a criminal history, and (2) based on the seriousness of the
offense and prior related offenses, it would impose the same statutorymaximum sentence regardless of the Guidelines range. And the Government
is correct that “Meza does not even attempt to show that a different result
would have been a substantial likelihood, and instead rests on conclusory
statements that the information was important to him.” See Brown, 650 F.3d
at 588.
The evidence was immaterial to the district court’s sentencing
determination. Therefore, the Government did not have a Brady obligation
to disclose the CS’s criminal history.

13

App. A 014

Case: 20-10218

Document: 00515743474

Page: 14

Date Filed: 02/12/2021

No. 20-10218

IV.
Finally, Meza argues the statute under which he was convicted, 18
U.S.C. § 922(j), is unconstitutional on its face and as applied. As Meza
concedes, both arguments are foreclosed by binding Fifth Circuit precedent.
See United States v. Hicks, 958 F.3d 399, 402 n.1 (5th Cir. 2020) (reaffirming
that § 922(g) is not unconstitutional as applied for lack of a knowledge
requirement), petition for cert. filed (U.S. Oct. 8, 2020) (No. 20-5959); United
States v. Alcantar, 733 F.3d 143, 146 (5th Cir. 2013) (reaffirming that § 922(g)
does not violate the Commerce Clause); see also United States v. Luna, 165
F.3d 316, 319–22 (5th Cir. 1999) (noting § 922(g) and (j) contain “virtually
identical language” regarding interstate commerce). We “may not overturn
another panel’s decision, absent an intervening change in the law, such as by
a statutory amendment, or the Supreme Court, or our en banc court.” Jacobs
v. Nat’l Drug Intelligence Ctr., 548 F.3d 375, 378 (5th Cir. 2008). So we reject
Meza’s constitutional arguments under our rule of orderliness.
*

*

*

The judgment of the district court is AFFIRMED.

14

App. A 015

APPENDIX B

Case 3:19-cr-00057-B Document 36 Filed 02/27/20

Page 1 of 7 PageID 89

App. B 001

Case 3:19-cr-00057-B Document 36 Filed 02/27/20

Page 2 of 7 PageID 90

App. B 002

Case 3:19-cr-00057-B Document 36 Filed 02/27/20

Page 3 of 7 PageID 91

App. B 003

Case 3:19-cr-00057-B Document 36 Filed 02/27/20

Page 4 of 7 PageID 92

App. B 004

Case 3:19-cr-00057-B Document 36 Filed 02/27/20

Page 5 of 7 PageID 93

App. B 005

Case 3:19-cr-00057-B Document 36 Filed 02/27/20

Page 6 of 7 PageID 94

App. B 006

Case 3:19-cr-00057-B Document 36 Filed 02/27/20

Page 7 of 7 PageID 95

App. B 007

